Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Wichita, Kansas Police Department
GR-50-00-010January 20, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Wichita Police Department.  The purpose of the grants is to enhance community policing.  Wichita was awarded a total of $9,375,000 to hire 125 new police officers.
	
We reviewed Wichita's compliance with seven essential grant conditions and found that the grantee generally adhered to the grant requirements.  However, the grantee's reimbursement requests contained unallowable costs for officer salaries and fringe benefits that resulted in questioned costs totaling $267,639.1   In addition, several status reports were either not timely or not filed.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.




Footnote
1. The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all of our findings are dollar-related.  See Appendix III for definitions of questioned costs.